     REDUCING MEDICATION PROBLEMS
                          OF THE ELD"ERLY
                         MANAGEM.ENT ADVISORY REPORT




      ItlVJCE$.
                  lI.r




'0



      "d3'a



OFFICE OF INSPECTOR GENERAL
OFFICE OF EVALUATION AND INSPECTIONS
                                                       OCTOBER 1990
  REDUCING MEDICATION PROBLEMS
         OF THE ELDERLY
                   MANAGEMENT AD SORY REPORT




                         Richard P. Kusrow
                         INSPECTOR GENERAL




OEI-Q4-89. 89122                               OCTOBER 1990
                         ......... ...........
                         ...


                                                    TABLE OF CONTENTS



PURPOSE                         II   II.. II. II.. II II II II II II II II II II II II. II II II II II II II II II. II           II II. II II. II.       II II II II II 11.



BACKGROUND. II II II II II II . II II II II II II II II II II II II II II II II II II II II II II II II II II II II II II II . II II II II II II .


METHODS                  II II II II II II II II II. II.   II. II II II II II II II II II II II II II II II II II II II II II II II II II II II II II II II II II II II 0 0


FINDINGS                                                                          II II II II II. II II II II II II II II II II II II II II II II II II II II II II II II .



RECOMMENDATIONS                                     II II II II II II II II II II II II II II II II II II II II II II II II II II II II II II II II II e II II II It II II .



COMMENTS. II II II II II . II . II II II II II II II II II II II II II II II II II II II II II II II II II II II II II II II . II . II II II II II II .. 5


APPENDIX A                    II II II II II . II II II II II II II II II . II II II II II II II II II II II II II II II II II II II II II II II II II II II II II a II A-1

PURPOSE

Identify actions which the Depanent of Health and Huma Services can tae        to improve
compliance among the elderly with medcation regimens.

BACKGROUND

Medication utilization problems afect the health and quality of life for a substatial number of
elderly persons. These problems also result in a significant amount of unnecessar health care
spending. Noncompliance with prescrption drgs, or the failur of a patient to COlTectly
follow instrctions for medcation use, contrbutes significantly to the medcation problems of
the elderly. Several components of the Depanent of Health and Human Services have an
interest in medcation problems of the elderly.

In 1989 under Medicaid, the Federal government and the States spent $3. 7 bilion for
prescription drgs, which is more than the $3. 4 bilion spent for physician servces.
Approximately 44 percent of Medcaid expenditus for prescrption drgs was for the        elderly.


In 1989, 1. 8 millon Medcare beneficiaes were enrolled in prepaid medcal plans, may of
which provide prescrption drg benefits. In both the Medcaid and Medcare progrs, an
incalculable amount is spent for physician and other medcal services necessitate by
medication problems.



METHODS

In the past year the Office of Inspector General issued thee reports related to medication
problems among the elderly. The report " Medcare Drug Utilization Review, " issued in Apri
1989, found that in 1987 an estimated 200, 00 older adults were hospitaizd   due   to adverse
drg reactions or experienced an adverse drg reaction while hospitazed. In Januar 1990
we issued two drt reports on the role of the clinical phanacist in the community settng.
 The Clinical Role of the Community Pharist" descrbes new modes of phanacy servces
and barers to their furer development. A companion report "The Cliical Role of the
Community Phanacist: Case Studies:' descrbes the reent experience of severa phancy
practitioners who are developing advanced forms of servce including counseling and drg
utilization review.

Attached to this document is .a four report, entitled Medcation Regimens: Causes of
Noncompliance. " Noncompliance occur when a patient fails to cOlTectly follow instrctions
for prescription drg use. The report reviews the scientic literatur to determe the extent to
which, and the reasons why the elderly may have diffculty complying with their medcation
regimens. This literatue ranges from small , narwly focused studies on aspects of
noncompliance, to book- length discussions on the elderly and medication problems,
including noncompliance.
In connection with this study on noncompliance, the OIG has examined (with representatives€
of PHS, AoA and HCFA) the CUITent programs, policies, and initiatives of those agencies, to€
identify practical ways to help the elderly adhere to medication regimens.€

FINDINGS€

Our review of the scientific literature (see attached repon number OEI-04- 89- 89121) revealed
that:

Many elderly do not comply with their medication regimens; the consequences are            serious.



      Based on a review of many studies of elderly noncompliance, one researcher found that,€
      on average, 55 percent of the elderly are noncompliant with their prescrption drg€
      orders. Another pai of researchers suggest that one- third of the elderly always comply,
      one-third sometimes comply, and one- third never comply with their prescription
      medication regimens.

      According to a study conducted for the Oregon Deparent of Human Resources,
      twenty-thre percent of admissions to one nuring home were diectly due to patient
      inabilty to manage medications at home.

      Over a two-month period, researchers at one large teaching hospital found that hospita€
      admissions for 23 patients, resulting from noncompliance with medications, accounted€
      for 590 hospital days and $60,000 in avoidable costs.€

There are many inter-related reasons for       noncompliance.


Varables which afect why the elderly may have diffculties complying with p scription€
medications fall into four main categories. Although separated into categories, these varables€
are closely inter-related and may overlap substantialy.€

     Physiological factors:  Loss of vision or hearng can impede an elderly person s abilty
     to read imponant infonnation about prescrptions or to hear instrctions about a
     regimen. Mobility limits, type of disease, symptoms of ilness, memory loss,
     depression , and cognitive impaients are other physiological varables that can€
     negatively affect compliance.
     Behavioral/actors:       These include social isolation , social and health beliefs, and
     economic condition. Many elderly people live alone. Several studies have shown that
     people who live alone more often fail to comply with medication regimens. For those
     elderly on fixed, minimal incomes, the abilty to purchase expensive medications may
     also be a factor affecting noncompliance.
      Treatmentfactors:   Imponant varables are the duration and complexity of the
      medication regimen. Without exception ,   studies have shown that compliance rates
      decrease when the tratment is long-term and when the regimen includes many different
      medications which must be taen concUIently. Many elderly people have chronic
      conditions, and/or multiple conditions. Other treatment factors include the type of
      medication prescribed, and the patient's perception of the medication.

     Health Care Provider/Patient Interactionfactors:        These include how well the
      physician , the phanacist, and the patient communicate with each other. The qualty
      and content of a physician s instrctions, the content of a phanacist ' s label, and the
      ability of a patient to ask questions can all affect compliance.

Education is the key to improving compliance.

      A review of the literatur showed that compliance- improving programs based on
      education can have benefit/cost ratios as high as 14:

      Several researchers have found that physicians and phanacists engagig in on- going,
      compliance- improving education , based on individual patient s needs, is the single best
      intervention for noncompliant behavior.

      Other means to help improve compliance include devices known as " compliance aids
      which can range from simple chars to record medications taken to sophisticated
      electronic bottle caps with beeping alans or flashing indicators to indicate when a dose
      is due.

RECOMMENDATIONS

Public Health Service



The PHS has long had an interest in prescrption medcation utiiztion among al segments of
the population , including the elderly. In its " Healthy People 200: National Health
Promotion and Disease Prevention Objectives, " section 12. 6 proposes to: " Increase to at least
75 percent the proporton of primar car providers who routinely review with their patients
aged 65 and older all prescrbed and over- the-counter medcines taken by their patients each
time a new medication is prescrbed. " In suppon of ths objective we recommend that PHS:

      Promote research on prescrption medication compliance, and examine the issue as a
      possible topic for clinical practice guidelines.

      Evaluate CUITent           programs which do or can promote education and trining   of health
      care practitioners on improving medication compliance among the elderly. These
      evaluations should include programs within Area Health Education Centers,
      Community and Migrant Health Centers, Geriatrc Education Centers, and the Indian
      Health Service. Programs which lack education and training in medication compliance
      should be provided the resources to develop such education and training programs
      especially suited to their clients.

Administration on Aging

Among other activities, the AoA has addssed the issue of mismedication and noncompliance
among the elderly by awarding grants and by disseminating information though State and
Area Aging Agencies. AoA' s " Annual Statement of Goals for 1990 and Beyond, " lists several
goal areas that relate to the elderly s medcation problems. We recommend that AoA:

      Through State and Ara Aging Agencies continue to disseminate informational
      materials and provide educational programs to help the elderly avoid medication
      problems.

      Encourage medcal schools to apply for those health promotion or training funds that
      could be used to stress the physician s responsibilty to improve medication compliance.

       Direct some discretionar grt money to programs aimed at addressing medication
      compliance problems among minority elderly groups.

      Assess the potential of home car      programs to   provide compliance- improving   servces
      (such as the distrbution   of medication reminder chars, ) and implement such services as
      appropriate.

Public Health Service and Administration on Aging

Since 1984 , representatives of PHS and AoA have met quarerly in the Committee for Joint
Health Promotion to discuss health issues related to the elderly. Mismedication in genera and
noncompliance as a contrbutor to mismedication should be a priority topic at one or more of
these meetings.

Health Care Financing Administration



The direct and indirect costs of prescription medication misuse among the ambulatory elderly,
includig noncompliance, are often borne by the Medicar and Medicaid progrs. With
the Office of Research and Development, HCFA has looked at utilization of prescription
medications among nursing home residents. In addition to this work , we recommend that
HCFA' s Offce of Research and Development:

     Initiate demonstration projects in the States which address the problems of
     noncompliance with prescrption medications among the 
    ambulatory  elderly. These
      projects should include test models which would determine which forms of physician
      pharacist, and patient education work best to improve compliance.


COMMENTS ON THE DRAFT REPORT

We received comments from PHS, AoA, HCFA and ASPE on the draft of this report. The
comments ar included in ApP" ndix A. Responses from al four agencies were favorable. The
PHS, AoA and HCFA generally concurd with all OIG recommendations. These agencies
also descrbed activities which have been or wil be taen to addess OIG recommendations.

For example, through the National Institutes of Health (Nl), PHS is funding research
dicted toward better medication use for older persons. The PHS wil also evaluate the
education and training services offered to health car practitioners though geriatrc education
centers (GEC) and ara health education centers (AHC) on the topic of the elderly and
prescription drg noncompliance.

The AoA wil continue to provide informational materials and trning to support the efforts of
State and Area Agencies on Aging in the area of proper medication use. The AoA also
suggested the possibilty of encourging medcal schools to. apply for health promotion or
training funds appropriate to the subject of the elderly and noncompliance.

Both PHS and AoA have agreed to discuss the topic of the elderly and medication at a
National Initiative on Health Promotion and the Aging meeting.

The HCFA is cUITently funding varous projects which addrss inappropriate use of drgs by
both the general population and among nuring home residents. The HCFA wil consider
including funding for demonstrtion projects which assess the forms of education most likely
to improve compliance with prescription medication regiens.

We appreciate the agencies ' supportve review of the report and its recommendations.
          APPENDIX A

PHS, AoA, HCFA, and ASPE Comments
        DEPARTMENT OF HEALTH Ia HUMAN SERVICES€                                  Of of th !(et
Adrmmsttatlon on                   gIng                                          Wnhington. D. C. 20201




     JUL I              fgg€
DATE:€

TO:                       Richard P. Kusserow€
                          Inspector General€

FROM:                         s. Commsioner on Agig€
SUBJECT:                  Comments on OIG Draf Report; "Reducig Medication Problems of the
                         Elderly, " OEI-04-89- 89122


This is in response to your memorandum of June 21, 1990, wlrch requested comments from
the Admstration on Aging (AoA) on this report. I am pleased to have thi opportnity
and would offer the fonowing comments:

             The report is well reasoned and contais a strong factal basis for its fidings. AoA
             concurs with the overal recommendation that education is the key to improvig
             compliance with proper medication regies. As the repon        notes, many of the AoA€
             sponsored health promotion and              traig
                                                    actities follow       th premie.€
             With regard to the specific recommendations addressed to AoA, AoA wi continue
             to provde informational material and traiing to support the effort of State and
             Area Agencies on Agg in the area of proper use of medication. It may interest you
             to know that each of the ten AoA Regional Offces wil be convenig regional health
             promotion meetings over the         comigmonth. The issue of appropriate use of
                                                            lS


             medication is among the issues which wil be addressed by these conferences. In
             addition, AoA wm seriously consider your recommendations . as we begi the process
             of developing the priorities for our FY 1991 discretionary ano ncement.

             Your second recommendation calls for AoA to "rediect some of the grt money

             given to pharmacy 

                                          olleges to medical schools" for project which stress the

             - physicians responsibillty to nnp rove p ient compHance. - would poiiifciut that iliere
             are no funds specificay earmarked to pharacy colleges. AoA wi consider the
             possibilty of encouraging medical schools to apply for such health promotion or
             training funds as may be appropriate for thi subject area.

             In any revisions which you make to your recommendations you may wish to conside'.f
             the potential role of the Geriatric Education Centers (GECs) funded by the Burcav
             of Health Professions, Health Resources Admitrtion, Public Health Servce.
             Since each GEC must have a medical school component, they might be in a position€
             to make a contdbution in this area.€
                                                                            compUance
      You have recommended that AoA and PHS raise the issue of medication
      in our quarterly meetingson our National Intiative on Health Promotion and the
                                                                    s offce to resume
      Aging. We have initiated discussions with the Surgeon Genera' discussions.
      these meetings and wil propose that th topic be included in the

I hope that you fid   these   comments helpful.



                                          &ce Tl Beny, Ph. .
                                          ..-.
                                                               Public Health Service
                               SERVICES
ARTMENT OF HEALTH & HUMAN

                                                               Memorandum
    AUG 2 2        190
Assistant Secretary for Health
                                                                            Elderly,
                         Keducing Medication Problems of the
OIG Draft Report

OEI-04-B9-B9l22
Inspector General


Attached are the PHS        comments on the subject OIG craft report.

 We concur wi th the we                                 them.Public
                     three recommendations addressed to the
                        are taking actions to implement
 Health Service and

                                                          0'


                                                 Mason,        D., pr.

  Attachment
                                                                      ..--..'

      COMMNTS OF THE PUBLIC HEATH SERVICE  ON THE OFFICE
                                       DRAT REPORT
          Q! INSPECTOR GENE
              REDUCING MEDICATION PROBLEMS OF THE
                               ELDERLY 1 " OEI-04- B9- 89l22



QIG Recommendation€
We recommend that PHS:€
     Promote research on prescription medication compliance and
     examne the issue as a possible topic for clinical
     practice guidelines.€

PHS Cornen t
                  Natio l Institutes of Health    (NIB) has iS8ued
We concur. The                (RFA) entitled "Pha:mcology  in
a request   for application
                     l! which solicits a comprehensi   range  of
Geriatric   Medicine
research directed toward better medication use for older€
persons. The research Includes techniques to tmprove dru€
                                                      and
prescribing, avoiding adverse druq reactions, and tmproved
phar.acologi treatments for comon causes of                 frail ty
disability In that regard, research into tmproving       importnt part of this
prescription medication compliance is an   ns were received by
effort One hundred and sixteen   applicati
                                         plans to award
NIB and are currently under review. NIH
approxim tely eight qrants totaling some $2 million in fiscal
year (FY)   1991.

In addition, the Agency for Health care policy and study,
                                                     Research
(AHCPR) is currently funding a major feasibility'
                                          . which will quantify
 Geriatric Drug- Related Hospitalization,              admssi9
drug-related adverse events aSBoc1ated with hospital €
of the elderly. AHCPR expects to sponsor a followup
                                               elemnt. study that€
will include patient compliance as a central €
AHCPR is also facilitating the development
                             areas. As it of   practice
                                            develops  these
guidelines in seven clinical
                       examne the issue   of medication
compliance in the three clinical. areas
guidelines, AHCPR will                  il whc.h JPedication 1s a
                                    These areas include:€
central element of the treatment.                 2) urinary
1) diagnosis and treatment of benign
                               3) painprostatic,
                                        maagement.
incontinence in the adult, and

 OIG Recommendation
      EValuate current proqr s which do or can promote€
                                                            'rese
      education and training of health care practitioners on€
      improving medication compliance   among  the elderly.
      evaluations should include program within area health
      educa    tion centers,
                               i ty and migrant health centers,
                                         the Indian Health€
      qeriatric education ceters, and
                                                                        training. in
                                                          educa1;ion anci
           Service. programs whi6
                     compliance should                   be provided the resources to
           medica tion
                                                         aining program especially
                               to their clients.
           develop such education and t
            sui ted
PHS Commen

We concur. In FY 1991 the Health Resources and Services
Adnistra tion (HRSA)  will ascertain the extent to which the
                                    (GEC) and area health
current geriatric education centers
educat on centers (AHC)  provide education and training of
                               provinq medication ccmp11ance
                                                  te of the
health care practitioners on

among the elderly.                          In FY 1992, based on the resul
evaluation, HRSA will consider modifying the funding priority
of the AHEC Program to integrat& patient
                                  educational offerings for
                                         noncompliance   on the
topic of pharmcogeriatrics and
practicing health professionals. The   above actions are
                                   inq of the AHC and GEC
contingent upon the continued fun
Programs. currently, these1991.
                             programs are not included in the
President' s Budget for FY
                                           es of the final
Later this year, HRSA will distribute cop
                                                 mae all.health
version of this OIG report to its community and mi;rant     health
 centers (C/MHC ) and strongly encourage them to
pro ers aware of this problem and obtain continuinq
                                                  needed. In addition,
                                                  by the end of
professional education as
FY 1991, PHS will have developed a new site-visit protocol for
                           ascertain, at that level, the need
 C/MHCs which will help to                      Site                         visit
 for education and training of practitioners. €
 reviewers can then make appropriate recommendations to the€
 C /MHCs .

  The Indian Health Service (IRS) has the largest       direct health
                                                     numer   of elderly
  care program in PHS.    There is an  increasing
  patients being seen in IRS hospitals and clinics, and
  pha    cists are extensively involved   in counseling
                                       Py 1991   IHS will all    patient
                                                            review   the
  on medication compliance. DUring
  content of. its pha.rmcy, training  programs   and  include   material
                                         the " elderly;.- 'IRS- will, also,
  to improve medication compli;uice- irf supplementa teaching
  complete an instructional video with             cists and other
  materials which is designed   to tra.:
                             determne pat  ph ents ' understanding of
  heal th care providers to                        applicat1  n in
   their medication.   This will have specifi
                                 elderly. The instructional video
  medication compliance in the                 se in all XHS
   will be available for distribution and                                    1991. The
   facili ties bythe end of the first quarter of FY
                                                        pharmcy
   video will also be made available to all major professional
   organizations in pharmacy as well as all colleges of
   in the united States.
OIG Recommendation€
Since 1984, representatives of PHS and the Admnistration on

Aging (AOA) have met quarterly with the Commttee for Joint€
Health Promotion to discuss health issues related to the

elderly.  Mismedication in general and noncompliance as a

contributor to mismedication should be a priority topic at one

or more of these meetings.

PHS Cornen t€
We concur. This topic will be taken up at the next meeting of

the Subcommttee.

Technical Comments

Page 3 -€    Economic condition, M which is included as a
            behavioral factor, . might be better represented if 1
            were separately cateqorized as a f.actor.
?age 4 -
 The goal to " reduce the incidence of adverse drug
            reaction among people age 65 and older to 8. S per
            100, 000" was included in the public review draft of
            the Year 2000 Objectives for the Nation. However,
            it is being removed from the final draft which is to
            be published on Septembr 6, 1990. '
              . ..     ..,
                                                         Health Care -
       DEPARTMENT OF ilEALm It HUMAN SERVICE             Financing Adminisration


                                   N1 0 I9              Memorandurn'

       Gail R." Wilensky,      Ph. D.
       Administrator .
ect	   OIG Draft Report: "Reducing Medication Problems of the
       Elderly" -OEI-04-89-89122

       The Inspector General"
       Office of the Secretary

            We have reviewed the subj ect draft report which discusses
       the extent to which and the reasons why the elderly may have
       difficulty complying with their medication reqimens.
            The report recommends that HCFA should initiate
       demonstration proj ects inthe States which address the
       problems of noncompliance with prescription medication
       reqimens amonq the ambulatory elderly. These proj ects should
       include test models which would determine which forms of
       physician, pharmacist, and patient education work best to
       improve compl         iance .
            HCFA is currently pursuing a number ot research and
       demonstration projects that are studying methods to reduce the
       inappropriate use of drugs by the elderly. Examples of these
       projects include the followinq:
              The University of Minnesota has developed a taxonomy of
              inappropriate use of medications as a result of a study
               f psychotropic drug use amonq Medicare beneficiaries
              who are nursinq home residents. In addition, Minnesota
              is currently involved in research which will identify-
              classify, and evaluate alternate approaches to Drug
              utilization Review in private sector hea'th insurance
              plans.
              Brandeis is studying the existing Medicaid druq data in
              order to assess its usefulness for enhancing HCFA t s
              understanding of the quality and effectiveness of druq
              utilization among Medicaid populations.
Page 2 - The Inspector General€

        The Uni versi ty of Wisconsin and SysteMetrics are
        studying medication use in quality of care indicators
       . f r nursing home patients and drug utilization and
        expenditures among ambulatory Medicaid recipients,
        respectively.    Using the Pennsylvania Pharmaceutical
        Assistance Survey data, Pennsylvania state University€
        is analyzinq patterns of pharmaceutical use and adverse€
        drug reactions.
      with the repeal of the druq benefit under Medicare, we€
are reassessing our research and demonstration priorities in€
the drug area. As we develop our strateqy, we will consider
OIG t S suggestion that we include demonstration efforts to
assess the forms of education most likely to improve
compliance with prescribed medication regimens.
     Please advise us whether you agree with our position on
the report t s recommendation at
                               your earliest convenience.
                                               !!



        DEPARTMENTDE                           NSERJCES                Ofce of th   Seet
                                                                       . Washington. O. C. 2020'




                                                      AUG . 6 \990


MEMORAUM


                         Richard P. Kusserow
                         Inspeotor General
FROM                     Assistant secretary for Planninq and Evaluation

SUBJECT:                 OIG Report   IIReducinq Medication Problems   of the
                         Elderly"
                                      ()I- n-ff/
ASPE has no comments to make about the report "Reducing€
Medication Problems of the Elderly
                                   II except to commend the OIG€
for a fine piece of                  work. 

